2311 Douglas Street
Omaha, Nebraska 68102-1214

.COCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Brieff S
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegaIbriefs.com
No. 20-654
ANTHONY JOHN RIPA,
Petitioner,
v.
STONY BROOK UNI VERSITY,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that 1 did, on the 5th day of February', 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR REHEARING in the above entitled case. All
parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
ANTHONY JOHN RIPA
ProSe
The Octagon, Suite 402
888 Main Street
New York, NY 10044
Telephone: (646) 300-2843
Petitioner

Subscribed and sworn to before me this 5th day of February, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5,2023

Notary Public

v

Affiant

40606

Attorneys for Respondent
Barbara Dale Underwood
Counsel of Record

Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.underwood@ag.ny.gov

Party name: Stony Brook University

212-416-8016

